2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:

contact@cocklelegalbriefs.com

fi
C@QCKLE

Legal Briefs

Est. 1923

1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

JONATHAN QUINN, INDIVIDUALLY AND AS
GUARDIAN AD LITEM FOR H.Q., A MINOR CHILD
AND TAMMY FASCHING, INDIVIDUALLY,
Petitioners,

Vv.

TRUCK INSURANCE EXCHANGE,
FARMERS INSURANCE EXCHANGE and
FARMERS INSURANCE GROUP OF COMPANIES,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8973 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 5th day of August, 2019.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

a be C Clit Qudiw-h, Chale

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38290
